                                             SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               OFFICE OF INSPECTIONS

                               Joint Issues in the Inspections of Embassy

                               Tel Aviv and Consulate General Jerusalem


                               Report Number ISP-I-11-35, March 2011
Inspector
General
       of




                                                                      IMPORTANT NOTICE
Office




                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED

          SENSITIVE BUT UNCLASSIFIED


 PURPOSE, SCOPE, AND METHODOLOGY
        OF THE INSPECTION
This inspection was conducted in accordance with the Quality
Standards for Inspections, as issued by the President’s Council on
Integrity and Efficiency, and the Inspector’s Handbook, as issued
by the Office of Inspector General for the U.S. Department of State
(Department) and the Broadcasting Board of Governors (BBG).

Purpose and Scope
The Office of Inspections provides the Secretary of State, the
Chairman of the BBG, and Congress with systematic and indepen­
dent evaluations of the operations of the Department and the BBG.
Inspections cover three broad areas, consistent with Section 209 of the
Foreign Service Act of 1980:
 • 	 Policy Implementation: whether policy goals and objectives
     are being effectively achieved; whether U.S. interests are being
     accurately and effectively represented; and whether all elements of
     an office or mission are being adequately coordinated.
 • 	 Resource Management: whether resources are being used and
     managed with maximum efficiency, effectiveness, and economy
     and whether financial transactions and accounts are properly
     conducted, maintained, and reported.
 • 	 Management Controls: whether the administration of activities
     and operations meets the requirements of applicable laws and
     regulations; whether internal management controls have been
     instituted to ensure quality of performance and reduce the likeli­
     hood of mismanagement; whether instance of fraud, waste, or
     abuse exist; and whether adequate steps for detection, correction,
     and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent
records; as appropriate, circulated, reviewed, and compiled the
results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recom­
mendations with offices, individuals, and organizations by this
review.


          SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED

                      SENSITIVE BUT UNCLASSIFIED





iii   OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                                      TABLE OF CONTENTS


KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

  Political and Economic Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

  Public Diplomacy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

  Consular Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

  Resource Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

  Visitor Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

  Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

  Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

  Information Management and Information Security . . . . . . . . . . . . . . . . . . . . . . . 14

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

PRINCIPAL OFFICIALS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23





      OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011    iv

                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





v   OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



KEY JUDGMENTS

   •     Relations between Embassy Tel Aviv and Consulate General Jerusalem are
         better than they have been in many years. Despite some lingering areas of
         confusion or rivalry, the OIG team found a better picture of coordination
         than expected. Instead of waiting for problems to resurface, the two missions
         should move now to institutionalize this atmosphere and create an ongoing
         culture of cooperation.
                                                                                                                         (b)(2)(b)(5)
   •     Consulate General Jerusalem is not a constituent post but a separate,
                    mission that manages U.S. relations with the Palestinians while
         Embassy Tel Aviv manages relations with the Government of Israel. The two
         missions have independent responsibilities and separate needs but share a
         common interest in a wide range of support and other areas.

   •     To minimize parochial perspectives in reporting on Israeli-Palestinian issues,
         the two missions should make more use of joint reporting cables.

   •     Both missions could achieve significant savings by combining services in
         some administrative, financial, communications, and other areas while
         retaining separate services in others as detailed in this report.

   •     (b)(2)(b)(5)




   •     (b)(2)(b)(5)




The inspections took place in Washington, DC, between September 1 and October 10,
2005; in Tel Aviv, Israel, between October 11 and 29, 2010; and in Jerusalem between
November 1 and 19, 2010. (b) (6)




    OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011       1

                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





2   OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



CONTEXT 


The recommendations in this report reflect those findings in the 2010 OIG inspec­
tions of Embassy Tel Aviv and Consulate General Jerusalem that require joint action
by both missions to resolve. The findings will also appear in identical form as appen­
dices in both reports. The recommendations are an integral—indeed, a vital—part
of both inspections, but for greater clarity in the compliance process, they are being
issued as a separate OIG report.

To ensure unambiguous accountability, OIG has assigned lead action on joint
recommendations to one mission in coordination with the other. Successful resolu­
tion, however, will require action by both, and OIG regards both posts as equally
responsible.

Despite its name, Consulate General Jerusalem is not a constituent post of the
embassy in Tel Aviv, but a separate mission that has chief of mission authority of its
own and reports directly to Washington. Its primary mission is to carry out relations
with the Palestinian Authority, including quasi-diplomatic efforts to promote nego­
tiations toward an independent Palestinian state and programs aimed at helping build
the institutions necessary for such a state. At the same time, the consulate general
(b)(2)(b)(5)                         depends on Embassy Tel Aviv for critical support
on both practical and policy levels. The result is that neither mission can succeed
without close cooperation with the other.




    OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   3

                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





4   OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



EXECUTIVE DIRECTION

As noted in the main reports, relations between the embassy and the consulate
general are better than they have been in many years. During the survey, Washington
officials warned the OIG team of past conflicts between the missions over turf,
authority, and perspective (b)(2)(b)(5)                      Despite some lingering
areas of confusion or inefficiency, the OIG team found an appropriate structural
relationship and a better picture of cooperation than expected. Current embassy and
consulate general leadership models good behavior, aware of the rule of thumb that
when commanders quarrel, they give permission to everyone below them to echo or
amplify their disputes.

Instead of waiting for such problems to resurface, the missions could move now to
institutionalize this atmosphere and create an ongoing culture of cooperation. Doing
so could help prevent backsliding in the future, when leaders’ personalities may not
be as collegial as they are now. Embassy Beijing and Consulate General Hong Kong,
the latter of which, like Jerusalem, is a free-standing mission and not a constituent
post, reached a written agreement on these issues in 2009.


   JOINT RECOMMENDATION 1: Embassy Tel Aviv, in coordination with
   Consulate General Jerusalem, should draft and agree upon a document setting
   forth principles and procedures requiring joint action and affecting work in
   each other’s consular districts. (Action: Embassy Tel Aviv, in coordination
   with Consulate General Jerusalem)


The Ambassador and consul general now attend public events together and encour-
age collaboration among their staffs. They could further motivate their employees to
work together by finding additional ways to demonstrate their own relations of trust.


   JOINT RECOMMENDATION 2: Embassy Tel Aviv, in coordination with
   Consulate General Jerusalem, should develop and carry out a plan to attend each
   other’s country team meetings at least quarterly, including at the chief of mission
   level, to share perspectives and improve coordination between the missions.
   (Action: Embassy Tel Aviv, in coordination with Consulate General Jerusalem)




    OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   5

                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


    POLITICAL AND ECONOMIC AFFAIRS
    Some reporting on Israeli-Palestinian issues could be strengthened by closer coordi-
    nation between the consulate general and the embassy. The embassy bases its report-
    ing on Israeli sources, and the consulate on Palestinian sources. On occasion, this
    has led to (b)(2)(b)(5)                 the contradictory perspectives of two foreign
    adversaries rather than an integrated view of both missions. The embassy and consul-
    ate have begun to hold joint meetings on some subjects, but their efforts to combine
    reporting have been hindered by too narrow a view of which post will receive the
    primary credit and which one will be listed as “contributing.” Joint reporting would
    not eliminate different views on policy or interpretation but combine information
    from both sources in a single message where appropriate. The British mission, facing
    similar dilemmas, makes extensive use of joint reporting by its embassy in Tel Aviv
    and its consulate general in Jerusalem.


       JOINT RECOMMENDATION 3: Consulate General Jerusalem, in coordi-
       nation with Embassy Tel Aviv, should develop and carry out a plan to increase
       their joint reporting on Israeli-Palestinian issues. (Action: Consulate General
       Jerusalem, in coordination with Embassy Tel Aviv)


    Both missions need to clarify the role of the Treasury representative in Jerusalem.
    Her work is focused on the West Bank but sometimes requires interaction with Israeli
    officials as well. Some Treasury Department visitors have been too impatient with
    this distinction and have pushed for her, instead of U.S. diplomats in Tel Aviv, to
    represent the U.S. Government in meetings with Israeli officials. The embassy has
    also not been adequately sensitive to Treasury’s need to deal with both authorities in
    order to carry out its responsibilities on complex issues such as Israeli Government
    permission for cash transfers into Gaza. Both missions could improve effectiveness by
    a limited cross-accreditation of the Treasury representative.


       JOINT RECOMMENDATION 4: Embassy Tel Aviv, in coordination
       with Consulate General Jerusalem, the Bureau of Near Eastern Affairs, and
       the Bureau of Resource Management, should approve any National Security
       Decision Directive 38 request to accredit the Treasury representative in
       Jerusalem to work on Palestinian issues with Israeli Government officials
       under the general supervision of Embassy Tel Aviv’s minister-counselor for
       economic affairs. (Action: Embassy Tel Aviv, in coordination with Consulate
       General Jerusalem, NEA, and RM)



6       OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



PUBLIC DIPLOMACY
Cooperation between the two missions is closer in the area of public diplomacy (PD).
In addition to coordinating on visits, they collaborate on joint International Visitor
programs with Israelis and Palestinians and share speakers and cultural programs.
The American Center in Jerusalem (managed by Tel Aviv) helped the consulate
general set up a new America House in East Jerusalem. Some PD programs have been
affected by the lack of clarity over which post is responsible for certain administrative
support functions discussed in the management section of this report.




CONSULAR OPERATIONS
Both posts suffered from an anomaly in their visa referral practices. Because
Consulate General Jerusalem is not a constituent post, Department regulations did
not permit section chiefs in Embassy Tel Aviv to refer their contacts to the consulate
general for expedited consular appointments or Consulate General Jerusalem to refer
visa cases to Embassy Tel Aviv. Because Embassy Tel Aviv is the authorized liaison
with all Israeli Government ministries, most of which are located in Jerusalem, this
prohibition limited the embassy’s ability to facilitate visa services for contacts in
Jerusalem, even when the contact was working on issues that benefitted Consulate
General Jerusalem. During the inspection, the Bureau of Consular Affairs amended
the Foreign Affairs Manual (9 FAM Appendix K) to permit reciprocal referrals.

Both missions have been talking for some time about exchanges in their consular
sections. Although language limitations and efficiency considerations must be taken
into account, the OIG team supports efforts to establish officer exchanges. Because
the two posts are about an hour apart, these exchanges could be implemented with­
out housing swaps, making them available to a wider range of officers than would
otherwise be the case.




RESOURCE MANAGEMENT
Both missions could do more to get more out of their limited resources by
de-conflicting remaining areas of uncertainty or dispute and supporting each other
whenever possible. The OIG team found residual tensions stemming from the
embassy’s keeping control of some functions that dated back to the period when
it was much larger than the consulate general or the consulate general’s assuming
that autonomy is automatically preferable. (b)(2)(b)(5)

    OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   7

                    SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


    (b)(2)(b)(5)
    The guiding principle should be advancing overall U.S. objectives as cost effectively
    as possible, not debating the prerogatives of one post or the other. Sometimes this
    principle will lead to more joint actions, sometimes to fewer, and sometimes to
    maintenance of the status quo, depending on the activity.

    New technology tools would help the missions share financial services. The
    Integrated Logistics Management System, now being deployed worldwide and
    projected to interface in the future with the Bureau of Resource Management’s finan-
    cial management system, offers possibilities. Microsoft Office SharePoint Services,
    now used by Consulate General Jerusalem and soon by Embassy Tel Aviv, holds
    promise as a means to share information and provide common workflow.

    Resolution of several management issues depends on cooperation between the two
    missions. One issue is mutual International Cooperative Administrative Support
    Services (ICASS) service support, which is problematic as the Department currently
    has no financial mechanism that allows one post to bill another for services. The
    ICASS Service Center realizes that this is a systemic deficiency and is working to
    develop such a capability within its software. In the meantime, the two missions
    compensate for this shortfall in various ways. For example, the PD section in Tel
    Aviv concluded in 2003 a memorandum of understanding that calls for Jerusalem to
    provide 15 ICASS services to Tel Aviv’s American Center in Jerusalem. As there is no
    payment mechanism, however, the workload and capitation counts for the American
    Center are included in those of the PD section in Jerusalem. Embassy Tel Aviv
    also provides pouch, diplomatic post office, and BlackBerry® services to Consulate
    General Jerusalem at no charge, absorbing the associated costs in its own budget. In
    the case of automated equipment in the American Center and the Ambassador’s suite
    in the King David Hotel, the embassy makes weekly maintenance and service visits
    when it would be more efficient for the consulate general to do them. The missions
    will also face an increased need for an ICASS cost reimbursement capability as the
    U.S. Agency for International Development increases the number of personnel that
    straddle the two missions and if the two missions collaborate to share some adminis-
    trative support functions.




        JOINT RECOMMENDATION 5: The Bureau of Resource Management’s
        International Cooperative Administrative Support Services Center should
        implement a system that allows post-to-post charging and payment for
        services. (Action: RM)




8        OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



Redundant administrative functions exist at the two missions. In Embassy Tel Aviv,
the OIG team noted that the consolidation plan is more of a status report than an
actionable set of proposals with defined milestones and outcomes. In Consulate
General Jerusalem, the Bureau of International Narcotics and Law Enforcement
Affairs section is growing and includes a management officer and administrative
support staff that mirror some consulate management section functions. The planned
increase of U.S. Agency for International Development positions in Jerusalem could
create additional redundancies. Duplicative administrative functions are inefficient
and would make a bad space problem even worse. Moreover, they would create a
larger staff footprint in a 15 percent danger-pay post.


    JOINT RECOMMENDATION 6: Embassy Tel Aviv, in coordination with
    Consulate General Jerusalem, should consolidate administrative support functions
    at both missions where appropriate to reduce or eliminate areas of duplication.
    (Action: Embassy Tel Aviv, in coordination with Consulate General Jerusalem)




VISITOR SUPPORT
More joint support of visitors could help both missions manage a heavy visitor
workload. Embassy Tel Aviv coordinates aspects of a visit that deal with the Israeli
Government, whereas Consulate General Jerusalem coordinates meetings with
Palestinians. This formula provides a clear line of responsibility for political purposes,
but using it to provide logistical support results in an inefficient use of people and
resources. Embassy Tel Aviv will send a number of people, including drivers, security
personnel, and expeditors, to stay with the visitors in Jerusalem, incurring a high
cost for hotel nights, per diem, and overtime pay. The embassy also coordinates
hotel reservations and other arrangements from Tel Aviv instead of using local
Jerusalem personnel. Embassy Tel Aviv believes Consulate General Jerusalem does
not have staff with the necessary credentials to provide this support in Jerusalem,
(b)(2)(b)(5)


                                                                                       The OIG team found this to
be outdated      information; (b)(2)(b)(5)



                                                                                                           A more equitable



     OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   9

                     SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



     allocation of access badges will allow Consulate General Jerusalem to pick up visitors
     at the airport who plan to go directly to Jerusalem.

     The OIG team concluded that Consulate General Jerusalem has, or could develop,
     the resources and contacts needed to provide more logistical support to visitors
     in Jerusalem without incurring the additional costs of moving a support platform
     between cities. In some cases, the consulate may not currently have the financial
     resources to increase its support of visitors, but developing a plan that includes
     increasing resources to the consulate would result in an overall cost savings to the
     Department in the long term.



         JOINT RECOMMENDATION 7: Embassy Tel Aviv, in coordination with
         Consulate General Jerusalem, should develop a joint process to provide logisti­
         cal support for visitors to Jerusalem from Consulate General Jerusalem where
         appropriate and cost effective. (Action: Embassy Tel Aviv, in coordination with
         Consulate General Jerusalem)




     HUMAN RESOURCES
     Consulate General Jerusalem employees from the West Bank face special difficul­
     ties in traveling to and from work past military checkpoints, as most do not have
     permits to remain in Israel proper outside working hours. Many feel isolated from
     their American and Israeli colleagues. (b)(2)(b)(5)




         JOINT RECOMMENDATION 8: Embassy Tel Aviv, in coordination with
         Consulate General Jerusalem, should improve the performance and morale of
         Consulate General Jerusalem employees who are residents of occupied West
         Bank territories by requesting the Israeli Government to ease restrictions on
         their ability to remain in Israel after working hours and to facilitate their
         passage through military checkpoints to and from work. (Action: Embassy Tel
         Aviv, in coordination with Consulate General Jerusalem)


     The two missions share a single, local compensation plan. Although the OIG team 

     agrees that a single plan is appropriate, it found a number of deficiencies that will 


10       OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


require joint action to correct. Responsibility for the plan passed in June 2009 from
Embassy Tel Aviv to Consulate General Jerusalem. The transfer of responsibility
was made on an informal basis and the duration is unclear. No joint committee or
working group exists that would consult on compensation matters and resolve issues
that may arise between the two posts, which must deal with different categories of
employees and provide equitable treatment to all. Communication between the two
posts on compensation matters is ad hoc. (b)(2)(b)(5)




    JOINT RECOMMENDATION 9: The Bureau of Near Eastern Affairs
    should require Embassy Tel Aviv and Consulate General Jerusalem to docu-
    ment their agreement on roles and responsibilities for administration of their
    shared local compensation plan. (Action: NEA)




    JOINT RECOMMENDATION 10: The Bureau of Near Eastern Affairs
    should require Embassy Tel Aviv and Consulate General Jerusalem to form a
    joint committee that shall meet on a scheduled and regular basis to consult and
    resolve issues pertaining to their shared local compensation plan. (Action: NEA)


Both missions participate in a supplemental retirement savings plan. The plan
augments social security benefits provided to Israeli citizens but is the only source of
retirement benefits for employees who hold West Bank identification. Employees and
the U.S. Government each contribute to the personal accounts, which are handled
through a broker with two insurance companies. In response to a 2008 change in
local law, Embassy Tel Aviv considered modernizing its retirement savings program.
Doing so required an audit, which had not been conducted since the program’s
inception. At the time of the inspection, the audit was in its 17th month and still
incomplete. LE staff members express little confidence in the savings program.
Despite management and employee agreement that a new retirement savings plan is
needed, the process is at a standstill.




    OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   11

                    SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




         JOINT RECOMMENDATION 11: The Bureau of Near Eastern Affairs
         should require Embassy Tel Aviv and Consulate General Jerusalem to
         complete the audit of their common retirement savings program and estab­
         lish a successor program that conforms to prevailing local practice, good
         governance, and legal requirements, and includes regularly scheduled audits.
         (Action: NEA)


     Health and social security benefits differ for those employees who are covered by the
     Israeli National Insurance Institute (NII) and those who are not. West Bank employ­
     ees are ineligible for national insurance; their retirement benefits consist only of the
     supplemental savings plan described earlier. Their health benefits consist of reim­
     bursement of 50 percent of medical costs up to a limit of 5 percent of their salary.
     Using data from comparators collected by the consulate general, the two missions
     could develop a joint plan to provide more equitable coverage.


         JOINT RECOMMENDATION 12: The Bureau of Near Eastern Affairs
         should require Embassy Tel Aviv and Consulate General Jerusalem to
         submit to the Bureau of Human Resources for approval a plan to modify the
         missions’ local compensation plan to provide equitable retirement and health
         benefits to employees who are not eligible for National Insurance Institute of
         Israel coverage. (Action: NEA)


     The 2005 OIG report recommended that Consulate General Jerusalem, in coordina­
     tion with Embassy Tel Aviv, resubmit a loan option request to the Bureau of Human
     Resources for approval. These loans against employee contributions to the supple­
     mental retirement savings accounts, which were allowed from 1999 to 2003, are
     especially important to non-Israeli citizen employees who do not have ready or easy
     access to bank loans. The two missions complied with the recommendation, gathered
     comparator data, and requested approval of the loan option. The Department denied
     the request. The OIG team examined the request documentation and consulted with
     the human resources sections of both missions, reaching agreement that the change
     in comparators from Watson Wyatt to Birches may make a difference. Moreover
     and in retrospect, the approach the missions took in interpreting and executing the
     Bureau of Human Resources guidance could have been flawed with regard to relat­
     ing it to local prevailing practice. The changed circumstances and importance of the
     loan option in achieving some equity among LE staff warrant yet another attempt to
     gain approval from the Bureau of Human Resources, which has offered to review the
     request again if post is able to collect additional comparator data.


12       OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   JOINT RECOMMENDATION 13: The Bureau of Near Eastern Affairs
   should require Embassy Tel Aviv and Consulate General Jerusalem to develop
   a justification for reinstating the option of loans against retirement savings
   accounts and submit it to the Bureau of Human Resources for approval.
   (Action: NEA)


The local compensation plan, dated September 12, 2010, and approved by the
Bureau of Human Resources, includes an annual transportation allowance of 5,214
New Israeli Shekels for every employee regardless of grade. Consulate General
Jerusalem believes that the rate should be 5,641 New Israeli Shekels in order to
comply with local law.


   JOINT RECOMMENDATION 14: The Bureau of Near Eastern Affairs
   should require Embassy Tel Aviv and Consulate General Jerusalem to deter­
   mine the level of transportation allowance required by local law and request
   Department of State approval for any necessary changes to their shared local
   compensation plan. (Action: NEA)




FINANCIAL MANAGEMENT
The OIG team found anomalies in the system by which the missions pay their
portions of the premiums for health and social security benefits. Consulate General
Jerusalem budgets for the entire amount due based on each employee’s salary and
an assumption that each employee will pay his or her entire obligation. Embassy
Tel Aviv budgets are based on the prior year’s actual expenses, a far smaller amount.
Employees pay some or all of the required premium payments, present proof of
payment to the financial management office, and are reimbursed.

Some employees at both missions are not claiming premium reimbursements in a
timely manner, and some are not claiming an amount commensurate with their
salaries. As a result, the missions are carrying forward unliquidated obligations from
year to year. Consulate General Jerusalem’s 2007 program, ICASS, and PD accounts
contain $309,171 in unliquidated NII premium funds. The same accounts for 2008
contain $355,860 of unliquidated obligations. By comparison, Embassy Tel Aviv
retained approximately $73,000 in similar accounts for FY 2009.



    OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   13

                    SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



     This practice creates a significant and unnecessary workload for the financial
     management unit, which processes payments by hundreds of LE staff each month.
     Many of the payments are made by the Class B cashiers at both missions, which
     increases cash risk. Paying the entire employer share of NII premiums in conjunction
     with regular salary payments would dispose of this obligation in a more efficient
     manner, eliminate the workload associated with the current method of payment,
     and reduce the large number of unliquidated obligations that are carried forward for
     many years.


        JOINT RECOMMENDATION 15: The Bureau of Near Eastern Affairs
        should require Embassy Tel Aviv and Consulate General Jerusalem to pay
        their obligations for the employer portion of National Insurance Institute of
        Israel social security and health benefits plan in full, in a timely manner, and
        in accordance with local practice and law. (Action: NEA)




     INFORMATION MANAGEMENT AND INFORMATION
     SECURITY
     Combining classified information networks would reduce costs for both missions. A
     consolidated network would create a suitable platform to support the joint reporting
     recommended earlier.


        JOINT RECOMMENDATION 16: The Bureau of Near Eastern Affairs, in
        coordination with the Bureau of Information Resource Management, should
        require Embassy Tel Aviv and Consulate General Jerusalem to consolidate their
        classified information networks. (Action: NEA, in coordination with IRM)


     Embassy Tel Aviv and Consulate General Jerusalem are not performing informa­
     tion systems security officer (ISSO) duties adequately due to insufficient staffing
     and competing priorities. There is little likelihood that the Department will create
     separate, full-time ISSO positions at both the consulate general and the embassy, so
     a more prudent approach is to designate a dedicated regional ISSO to support both
     missions.




14       OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




JOINT RECOMMENDATION 17: The Bureau of Near Eastern Affairs, in
coordination with the Bureau of Human Resources, should establish a regional
information systems security officer position to support Embassy Tel Aviv and
Consulate General Jerusalem. (Action: NEA, in coordination with DGHR)




OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   15

                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





16   OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




LIST OF RECOMMENDATIONS


JOINT RECOMMENDATION 1: Embassy Tel Aviv, in coordination with
Consulate General Jerusalem, should draft and agree upon a document setting
forth principles and procedures requiring joint action and affecting work in each
other’s consular districts. (Action: Embassy Tel Aviv, in coordination with Consulate
General Jerusalem)


JOINT RECOMMENDATION 2: Embassy Tel Aviv, in coordination with
Consulate General Jerusalem, should develop and carry out a plan to attend each
other’s country team meetings at least quarterly, including at the chief of mission
level, to share perspectives and improve coordination between the missions. (Action:
Embassy Tel Aviv, in coordination with Consulate General Jerusalem)


JOINT RECOMMENDATION 3: Consulate General Jerusalem, in coordination
with Embassy Tel Aviv, should develop and carry out a plan to increase their joint
reporting on Israeli-Palestinian issues. (Action: Consulate General Jerusalem, in coor­
dination with Embassy Tel Aviv)


JOINT RECOMMENDATION 4: Embassy Tel Aviv, in coordination with
Consulate General Jerusalem, the Bureau of Near Eastern Affairs, and the Bureau of
Resource Management, should approve any National Security Decision Directive 38
request to accredit the Treasury representative in Jerusalem to work on Palestinian
issues with Israeli Government officials under the general supervision of Embassy Tel
Aviv’s minister-counselor for economic affairs. (Action: Embassy Tel Aviv, in coordi­
nation with Consulate General Jerusalem, NEA, and RM)


JOINT RECOMMENDATION 5: The Bureau of Resource Management’s
International Cooperative Administrative Support Services Center should implement
a system that allows post-to-post charging and payment for services. (Action: RM)


JOINT RECOMMENDATION 6: Embassy Tel Aviv, in coordination with
Consulate General Jerusalem, should consolidate administrative support functions at
both missions where appropriate to reduce or eliminate areas of duplication. (Action:
Embassy Tel Aviv, in coordination with Consulate General Jerusalem)




    OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   17

                    SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



     JOINT RECOMMENDATION 7: Embassy Tel Aviv, in coordination with
     Consulate General Jerusalem, should develop a joint process to provide logistical
     support for visitors to Jerusalem from Consulate General Jerusalem where appropri­
     ate and cost effective. (Action: Embassy Tel Aviv, in coordination with Consulate
     General Jerusalem)


     JOINT RECOMMENDATION 8: Embassy Tel Aviv, in coordination with
     Consulate General Jerusalem, should improve the performance and morale of
     Consulate General Jerusalem employees who are residents of occupied West Bank
     territories by requesting the Israeli Government to ease restrictions on their ability
     to remain in Israel after working hours and to facilitate their passage through mili­
     tary checkpoints to and from work. (Action: Embassy Tel Aviv, in coordination with
     Consulate General Jerusalem)


     JOINT RECOMMENDATION 9: The Bureau of Near Eastern Affairs should
     require Embassy Tel Aviv and Consulate General Jerusalem to document their agree­
     ment on roles and responsibilities for administration of their shared local compensa­
     tion plan. (Action: NEA)


     JOINT RECOMMENDATION 10: The Bureau of Near Eastern Affairs should
     require Embassy Tel Aviv and Consulate General Jerusalem to form a joint commit­
     tee that shall meet on a scheduled and regular basis to consult and resolve issues
     pertaining to their shared local compensation plan. (Action: NEA)


     JOINT RECOMMENDATION 11: The Bureau of Near Eastern Affairs should
     require Embassy Tel Aviv and Consulate General Jerusalem to complete the audit
     of their common retirement savings program and establish a successor program that
     conforms to prevailing local practice, good governance, and legal requirements, and
     includes regularly scheduled audits. (Action: NEA)


     JOINT RECOMMENDATION 12: The Bureau of Near Eastern Affairs should
     require Embassy Tel Aviv and Consulate General Jerusalem to submit to the Bureau
     of Human Resources for approval a plan to modify the missions’ local compensation
     plan to provide equitable retirement and health benefits to employees who are not
     eligible for National Insurance Institute of Israel coverage. (Action: NEA)


     JOINT RECOMMENDATION 13: The Bureau of Near Eastern Affairs should
     require Embassy Tel Aviv and Consulate General Jerusalem to develop a justification
     for reinstating the option of loans against retirement savings accounts and submit it
     to the Bureau of Human Resources for approval. (Action: NEA)

18       OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



JOINT RECOMMENDATION 14: The Bureau of Near Eastern Affairs should require
Embassy Tel Aviv and Consulate General Jerusalem to determine the level of transporta­
tion allowance required by local law and request Department of State approval for any
necessary changes to their shared local compensation plan. (Action: NEA)


JOINT RECOMMENDATION 15: The Bureau of Near Eastern Affairs should
require Embassy Tel Aviv and Consulate General Jerusalem to pay their obligations
for the employer portion of National Insurance Institute of Israel social security and
health benefits plan in full, in a timely manner, and in accordance with local practice
and law. (Action: NEA)


JOINT RECOMMENDATION 16: The Bureau of Near Eastern Affairs, in coor­
dination with the Bureau of Information Resource Management, should require
Embassy Tel Aviv and Consulate General Jerusalem to consolidate their classified
information networks. (Action: NEA, in coordination with IRM)


JOINT RECOMMENDATION 17: The Bureau of Near Eastern Affairs, in coordi­
nation with the Bureau of Human Resources, should establish a regional information
systems security officer position to support Embassy Tel Aviv and Consulate General
Jerusalem. (Action: NEA, in coordination with DGHR)




    OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   19

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





20   OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




PRINCIPAL OFFICIALS


Embassy Tel Aviv
Position                                                                 Name                                        Arrival Date
Ambassador                                                               James Cunningham                                08/2008
Deputy Chief of Mission                                                  Thomas Goldberger                                07/2010

Chiefs of Sections:
Management                                                               Robert Davis                                       08/2010
Consular                                                                 Andrew Parker                                      08/2008
Political                                                                Robert Silverman                                    08/2010
Economic                                                                 David Burnett                                      07/2008
Political Research                                                       Steven Slick                                       08/2009
Public Affairs                                                           Hilary Olsin-Windecker                             10/2010
Regional Security                                                        Daniel Power                                       08/2008

Other Agencies:
Department of Commerce                                                   Jonathan Heimer                                    08/2009
Defense Attaché Office                                                   COL Richard Burgess                                06/2009
Department of Homeland Security                                          Richard Jolles                                     09/2010
Open Source Center                                                       Carol Van der Voort                                07/2009
Agency for International Development                                     Michael Harvey                                     08/2010
Department of Justice                                                    Jeffrey Walker                                     07/2008

Consulate General Jerusalem
Position                                                                 Name                                        Arrival Date
Consul General                                                           Daniel Rubinstein                               09/2009
Deputy Chief of Mission                                                  Gregory Marchese                                08/2008

Chiefs of Sections:
Administrative                                                           Grace Stettenbauer                                 09/2004
Consular                                                                 Debra Towry                                        10/2009
Political                                                                John Waters                                        06/2009
Economic                                                                 Mark Johnson                                       08/2010
Bureau of International Narcotics
     & Law Enforcement                                                   Alyce Tidball                                       09/2010
Public Affairs                                                           Frank Finver                                        08/2009
Regional Security                                                        Robert Grech                                        06/2010
U.S. Security Coordinator                                                LTG Michael Moeller                                 09/2010

     OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011     21

                     SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



     Other Agencies:
     Department of Justice                                                   Andre Khoury                                       06/2010
     Office of Regional Affairs                                              Christopher Huttleston                             08/2009
     U.S. Department of Treasury                                             Katherine Bauer                                    03/2009
     U.S. Agency for International Development                               Karen Exel                                         09/2009




22       OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




ABBREVIATIONS


ICASS 	                                International Cooperative Administrative Support
                                       Services
ISSO	                                  Information systems security officer
LE	                                    locally employed (staff)
NII 	                                  National Insurance Institute
PD	                                   Public diplomacy




      OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011   23

                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





24   OIG Report No. ISP-I-11-35 - Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

 of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320 

            800-409-9926


         oighotline@state.gov


              oig.state.gov


      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.



SENSITIVE BUT UNCLASSIFIED

